<html>
<title> - LEGISLATION TO IMPROVE AND SUSTAIN THE MEDICARE PROGRAM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                 LEGISLATION TO IMPROVE AND SUSTAIN THE


                            MEDICARE PROGRAM

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON HEALTH

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 8, 2016

                               __________

                            Serial 114-HL09

                               __________

         Printed for the use of the Committee on Ways and Means
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        










                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 21-308                  WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                 

         
         
         
         


                      COMMITTEE ON WAYS AND MEANS

                      KEVIN BRADY, Texas, Chairman

KEVIN BRADY, Texas                   SANDER M. LEVIN, Michigan
SAM JOHNSON, Texas                   CHARLES B. RANGEL, New York
DEVIN NUNES, California              JIM MCDERMOTT, Washington
PATRICK J. TIBERI, Ohio              JOHN LEWIS, Georgia
DAVID G. REICHERT, Washington        RICHARD E. NEAL, Massachusetts
CHARLES W. BOUSTANY, JR., Louisiana  XAVIER BECERRA, California
PETER J. ROSKAM, Illinois            LLOYD DOGGETT, Texas
TOM PRICE, Georgia                   MIKE THOMPSON, California
VERN BUCHANAN, Florida               JOHN B. LARSON, Connecticut
ADRIAN SMITH, Nebraska               EARL BLUMENAUER, Oregon
LYNN JENKINS, Kansas                 RON KIND, Wisconsin
ERIK PAULSEN, Minnesota              BILL PASCRELL, JR., New Jersey
KENNY MARCHANT, Texas                JOSEPH CROWLEY, New York
DIANE BLACK, Tennessee               DANNY DAVIS, Illinois
TOM REED, New York                   LINDA SANCHEZ, California
TODD YOUNG, Indiana
MIKE KELLY, Pennsylvania
JIM RENACCI, Ohio
PAT MEEHAN, Pennsylvania
KRISTI NOEM, South Dakota
GEORGE HOLDING, North Carolina
JASON SMITH, Missouri
ROBERT J. DOLD, Illinois
TOM RICE, South Carolina

                     David Stewart, Staff Director

                   Nick Gwyn, Minority Chief of Staff

                                 ______

                         SUBCOMMITTEE ON HEALTH

                   PATRICK J. TIBERI, Ohio, Chairman

SAM JOHNSON, Texas                   JIM MCDERMOTT, Washington
DEVIN NUNES, California              MIKE THOMPSON, California
PETER J. ROSKAM, Illinois            RON KIND, Wisconsin
TOM PRICE, Georgia                   EARL BLUMENAUER, Oregon
VERN BUCHANAN, Florida               BILL PASCRELL, JR., New Jersey
ADRIAN SMITH, Nebraska               DANNY DAVIS, Illinois
LYNN JENKINS, Kansas                 JOHN LEWIS, Georgia
KENNY MARCHANT, Texas
DIANE BLACK, Tennessee
ERIK PAULSEN, Minnesota


                            C O N T E N T S

                               __________
                                                                   Page

Advisory of June 8, 2016, announcing the hearing.................     2

                               WITNESSES

PANEL ONE
The Honorable Charles W. Boustany, Member of Congress, 
  Washington, D.C................................................    22
The Honorable Robert J. Dold, Member of Congress, Washington, 
  D.C............................................................    16
The Honorable Kristi L. Noem, Member of Congress, Washington, 
  D.C............................................................    20
The Honorable David G. Reichert, Member of Congress, Washington, 
  D.C............................................................    18
PANEL TWO
The Honorable Joseph Crowley, Member of Congress, Washington, 
  D.C............................................................    30
The Honorable John B. Larson, Member of Congress, Washington, 
  D.C............................................................    28
The Honorable Patrick Meehan, Member of Congress, Washington, 
  D.C............................................................    25
The Honorable James B. Renacci, Member of Congress, Washington, 
  D.C............................................................    21
PANEL THREE
The Honorable Alexander X. Mooney, Member of Congress, 
  Washington, D.C................................................    26
The Honorable Christopher H. Smith, Member of Congress, 
  Washington, D.C................................................    33
The Honorable Lee M. Zeldin, Member of Congress, Washington, D.C.    31

                       SUBMISSIONS FOR THE RECORD

The Honorable Diane Black, statement.............................    48
The American College of Clinical Pharmacy, and The College of 
  Psychiatric and Neurologic Pharmacists, statement..............    50
Lymphedema Advocacy Group, statement.............................    53
Medicare Rights, statement.......................................    59
Property Casualty Insurers Association of America, statement.....    61


        LEGISLATION TO IMPROVE AND SUSTAIN THE MEDICARE PROGRAM

                              ----------                              


                        WEDNESDAY, JUNE 8, 2016

             U.S. House of Representatives,
                       Committee on Ways and Means,
                                    Subcommittee on Health,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:20 p.m. in 
Room 1100 Longworth House Office Building, the Honorable Pat 
Tiberi [chairman of the subcommittee] presiding.
    [The advisory announcing the hearing follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    

    Chairman TIBERI. The subcommittee will come to order. 
Welcome to the Ways and Means Health Subcommittee Member Day 
hearing entitled, ``Legislation to Improve and Sustain the 
Medicare Program.'' Today, similar to our last Member Day 
hearing on tax-related proposals to improve health care, this 
Subcommittee is providing a public platform for any and all 
Members of Congress interested to discuss bills that they have 
introduced that modify the way health care is assessed and 
delivered to more than 55 million seniors who rely on the 
Medicare program.
    Members have put a lot of work into developing and drafting 
these pieces of legislation, and this Member Day hearing is 
their opportunity to share with their colleagues and the 
American people why these bills are important, and why this 
Committee should take them up.
    In addition to my colleagues from Ways and Means, I am 
excited to hear from Members who serve on other committees who 
have worked equally hard on legislation to transform and 
improve our Medicare program.
    We remain committed to working through regular order. That 
includes hearings like the one today from those on and off the 
committee.
    So how is it going to work? Members will have five minutes 
to discuss their Medicare legislative priorities. I would 
remind those Members that they are also able to submit written 
testimony in support of their legislation.
    We thank you all, witnesses and members of this 
Subcommittee, for taking the time out of your busy schedules to 
be with us today. And I hope, Dr. McDermott, we can build on 
the kind words you said about us yesterday. I knew it might 
take a little while for you to say kind words about us, and we 
accomplished that. So let's build on that, sir.
    I yield to the ranking member.
    Mr. MCDERMOTT. Thank you, Mr. Chairman. We might as well 
start out on a good note. And I think that I want to thank you 
for holding this Member Day hearing to improve and sustain 
Medicare. I welcome this opportunity to learn more about the 
ideas that my colleagues may have, and they will discuss today.
    When it comes to Medicare, the policies which were put in 
place in 1965, those policies we have made a wide range of 
interests--physicians, insurers, hospitals, and many others. 
And the most important people affected, however, by Medicare 
are the beneficiaries, the 55 million seniors and Americans 
with disabilities who depend on Medicare for their health care.
    At its core, Medicare is a fulfillment of a commitment to 
the health security of the American people. Individuals who 
have contributed to the system deserve the peace of mind of 
knowing that Medicare's benefits will be there when they need 
them. That means that Congress must work to ensure that 
Medicare truly strengthens the quality and accessibility of 
beneficiaries' health care.
    A strong Medicare doesn't mean we turn the program over to 
the insurance industry, and it doesn't mean we shift more costs 
on to the beneficiaries. A stronger Medicare is a program that 
provides comprehensive coverage to beneficiaries at affordable 
cost. To make that a reality we have to move the conversation 
in Congress away from harmful ideas like privatizing the 
program and cutting seniors' benefits toward a more productive 
discussion of how to make Medicare work better for 
beneficiaries.
    To that end, I intend to discuss legislation I have 
recently introduced which will provide beneficiaries with 
access to comprehensive dental, vision, and hearing services. 
This is a popular, long-overdue reform that will improve the 
health security of millions of Americans. And I look forward to 
talking further about the importance of this during the 
hearing.
    I also hope to hear from my colleagues about other ideas 
that will continue to build upon and expand Medicare. I intend 
to carefully scrutinize ideas that may not be in the best 
interests of the program or the beneficiaries. Today's hearing 
is a part of what must be an ongoing process of careful debate 
that will show the American people what Congress is doing or 
not doing to improve health security.
    When Medicare was put in place, the life expectancy in this 
country was about 10 years lower than it is today. So we had 
such success in Medicare that we have got a whole lot of new 
problems that we didn't have before. It must be followed by 
substantive legislative hearings and markups and amendments, so 
that we could weed out bad ideas and make sure the ones that 
are good can have the passage of this Congress.
    Thank you again, Mr. Chairman, for bringing this day 
together, and I look forward to hearing the witnesses.
    Chairman TIBERI. Thank you, Dr. McDermott. Without 
objection, other Members' opening statements will be made part 
of the record.
    Now we will hear from Members of the Subcommittee on their 
priorities to improve Medicare. I am the lead Republican on the 
Medicare Home Infusion Site of CARE Act, which we are working 
with the Senate and CMS to ensure it will work for all 
stakeholders. It is truly an important piece of legislation 
that will expand beneficiary access to infusion treatments in 
their homes, if that is where they choose to receive their 
care, something that private providers already cover.
    I look forward to continuing to work on this legislation 
that will increase beneficiary access to appropriate and cost-
effective care, and advancing it when it is ready.
    Chairman TIBERI. With that, I turn to my left, literally, 
to Dr. McDermott once more for the purposes of discussing his 
legislation.
    Dr. McDermott, you are recognized for five minutes.
    Mr. MCDERMOTT. We welcome you on the left. I would like to 
ask unanimous consent to enter into the record a letter from 
the Medicare Rights organization dated 8 June 2016.
    Chairman TIBERI. Without objection. Without objection.
    [The information follows: The Honorable Jim McDermott]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. MCDERMOTT. Mr. Chairman, I have sat here on this 
Committee for 25 years and watched lots of things happen. And I 
am really glad that we are having a hearing today when we could 
put some ideas up on the table that we haven't had before.
    I am introducing today a bill called the Medicare Dental, 
Vision, and Hearing Act, a bill I introduced, I guess, 
yesterday, actually.
    The creation of Medicare in 1965 was one of the great 
policy achievements in the history of this country. The 
benefits that Medicare provided ensured that 55 million 
citizens and people with disabilities would enjoy the peace of 
mind and the security that comes with having quality health 
coverage. The best way to improve and sustain Medicare is by 
expanding it and strengthening it because, unfortunately, there 
are holes in the program that weaken health security of our 
beneficiaries.
    One of the largest holes in the Medicare system is that it 
does not currently cover most dental, vision, or hearing 
expenses. In fact, not only does it not pay for these crucial 
health services, they are specifically excluded from coverage 
by the statute that was passed in 1965. This is a misguided 
policy that, for decades, has had harmful consequences on 
beneficiaries.
    Doing without dental coverage frequently leads to 
preventable health problems. Patients who have poor or no 
dental care often find themselves suffering from costly and 
potentially fatal conditions such as cardio-vascular disease 
and oral cancers. We had recently here in Washington, D.C. a 
young kid who didn't have dental care and got encephalitis of 
the brain from an infected tooth.
    Now, similar untreated vision disorders substantially 
increase the risk of falls among senior citizens. One of the 
biggest problems for senior citizens is falling. And if they 
have bad vision and don't have glasses, or they got cataracts 
or whatever, they are having trouble. These falls can result in 
serious injuries and expensive hospitalizations.
    Hearing loss, for those of us who grew up in the age of 
rock music, and used to stand next to the woofers and the 
tweeters at full volume, today have hearing aids because we did 
things with our ears that we didn't understand then. There are 
lots and lots of seniors who have hearing loss and that is an 
isolating event.
    When you have no ability to hear, you are cut out of 
everything. And that is why it is--if we are having seniors 
live longer and longer and longer, into their eighties and 
nineties, we are going to see more of the hearing and the 
vision loss that we have not dealt with in the past. It is a 
widespread--the hearing loss is as widespread among Medicare 
beneficiaries, often leading to social isolation, depression, 
and cognitive impairments. We wind up treating them for 
depression, we treat them for all kinds of other things, 
basically, because they can't hear.
    Yet research shows that a majority of the elderly who need 
hearing aids do not have them, in large part due to cost. That 
is why the reforms made by the Medicare Dental, Vision, and 
Hearing Benefit Act are so important. This bill modernizes and 
strengthens Medicare's benefit package to address the full 
spectrum of beneficiaries' health needs. It amends Part B to 
provide coverage of important health services, including 
routine and major dental care, refractive eye exams, and 
hearing exams, and adds coverage for important supplies 
including dentures, glasses, and hearing aids. It repeals the 
harmful statutory exclusions that prevent Medicare from paying 
for these costs.
    And to control costs and ease the burden as we implement 
these major reforms, it places reasonable limitations on 
coverage and provides that new benefits will be phased in 
gradually. All too often at this Committee our policy 
discussions focus on how much we can cut from Medicare and how 
to further shift the costs onto beneficiaries. In the process 
we fail to recognize the possibilities before us and the 
enormous power we wield.
    The truth is that Medicare must be strengthened, not cut, 
and benefits must be expanded, not scaled back. As the Ways and 
Means Committee, we owe a duty to the American people to 
discuss how we can make that happen.
    And I yield back the balance of my time. I thank the 
chairman.
    Chairman TIBERI. Thank you. Thank you, Dr. McDermott. My 
phone was ringing and I was thinking it was my mom and dad 
calling me about your legislation there.
    [Laughter.]
    Chairman TIBERI. Very well done. Mr. Roskam is recognized 
for five minutes.
    Mr. ROSKAM. Thank you, Mr. Chairman and Ranking Member 
McDermott. Five minutes, three bills, let me do this quickly. 
Buckle up, I think I can do it.
    So H.R. 512 is the Disarm Act, and it is designed to 
incentivize the development of new antibiotic drugs. The 
Administration recognizes that we have an incredible problem 
here. The CDC recognizes that we have an incredible problem 
here. And the incredible problem is that we have got infections 
that are unwilling to yield to some of the antibiotics, and we 
don't have enough incentive out there in the private sector to 
invest, essentially. And this is a plague.
    Let me just give you one quick example. In March and April 
in the Midwest 18 people died from 57 inspections in 3 states. 
And this is here, it is upon us, and we need to deal with it. 
H.R. 512 would address this by reimbursing hospitals for the 
cost of acquired new certain agents.
    It passed in Chairman Upton's Cures Act. We will see where 
that is in the Senate, Mr. Chairman, but in my view, we would 
be wise to reclaim jurisdiction here and move it again.
    Bill number two, H.R. 3220, the Common Access Card. This is 
a bill that I have introduced with Mr. Blumenauer. Some of the 
work of the Oversight Subcommittee has shown that the fraud and 
erroneous payments rate at Medicare is 12.7 percent. I mean 
this is a shocking figure. And, you know, you begin to ask 
yourself, ``How is this possible?'' Well, it is possible in 
part because you got these flimsy old Medicare cards, and it is 
a bunch of nonsense.
    And what we are proposing is this, to take the technology 
that the Department of Defense uses currently, try a pilot 
program, and create a common access card.
    Ready for a statistic? February 2016, a few months ago, GAO 
revealed that 22 percent of health care fraud cases ultimately 
prosecuted by the Federal Government could have been prevented 
by use of a smart card--22 percent. Marinate in that for a 
second. When we are running around here, grubbing around, 
looking for nickels and dimes, thinking about 22 percent, 
thinking about 12.7 percent--you take my point.
    So here is what we need to do. We need to pass this bill, 
number one. But you need to give us good feedback.
    I spoke with Secretary Burwell this week. She is committed 
to expediting a meeting to get stakeholders together. And I 
think we can do a lot of good work here. And, Dr. McDermott, I 
am looking to you to get on this bill.
    And then finally, the H.R. 4853 is the SAFE Act. And in a 
nutshell, this legislation provides CMS with additional 
flexibility to permit approved private-sector accreditors to 
use their own updated standards and survey processes for 
hospital accreditation. So, in other words, we have got the 
private sector that is doing a fabulous job, we have got a 
statute that basically tethers us to an old system. So let's 
dump the loser stuff, pick up the things that work, and let's 
adopt it so that these hospitals can move forward on that 
basis, to allow accrediting bodies to use assessment methods 
that incorporated the latest, best practices in health care 
delivery to ensure hospitals adhere to high-quality standards 
and patient safety.
    And Mr. Chairman, who doesn't love that? And I yield back.
    Chairman TIBERI. Well done, Mr. Roskam, thank you very 
much.
    Before I yield to Mr. Davis for five minutes, I just want 
to thank him for coming down to the floor yesterday and his 
kind words on the bill that originated in this Subcommittee, 
and thank all the Members for their input on a bill that passed 
the floor unanimously yesterday.
    So with that, Mr. Davis, you are recognized for five 
minutes.
    Mr. DAVIS. Thank you, Mr. Chairman. And I shall discuss 
H.R. 2124, the Resident Physician Shortage Reduction Act, 
introduced by Representatives Crowley and Boustany.
    Mr. Chairman and Ranking Member, the Illinois 7th 
Congressional District, which I represent, contains the most 
hospital beds of any congressional district in the nation, and 
is also home to four major academic medical centers. Given our 
nation's growing and aging population, coupled with the 
coverage expansion contained in the Affordable Care Act, the 
demand for health care continues to increase, especially for 
those with complex health care needs, such as the fastest-
growing population in the nation of those aged 75 and older.
    Recent studies show that our nation will need as many as 
90,000 new physicians over the next decade, and as many as 
63,000 of which will need to be specialists.
    Clearly, today more than ever, Congress should maintain and 
enhance our nation's investment in training tomorrow's 
physician workforce. Given that it takes anywhere from 5 to 10 
years to train a physician, the question facing Congress is 
what are we doing to ensure that our nation is physician 
workforce ready to meet our nation's health care needs both 
today and in the future?
    The teaching hospitals in my district are incurring the 
costs of these programs significantly greater than the direct 
and indirect graduate medical education payments they received. 
In fact, most of the major teaching hospitals in Chicago are 
training in excess of 100 doctors over the residency cap, which 
costs tens of millions of dollars that will never be reimbursed 
to those institutions for training more physicians to address 
the growing shortages in primary care and acute surgical 
specialties.
    Medical schools and teaching hospitals are also working to 
ensure that new doctors coming into the system are trained to 
serve in new delivery models that focus on care coordination 
and quality improvement. According to the latest physician 
workforce projections, roughly two-thirds of the shortage in 
coming years will be in specialty practice areas such as 
neurology, pediatrics, subspecialties, geriatrics, and 
oncology.
    We need more doctors and allied health professionals to 
assist a health care system that for decades was not adequately 
addressed in health disparities among millions of racial and 
ethnic minority Americans. Many of our minorities are 
disproportionately more likely to suffer deleterious health 
just because they are low-income wage owners, poor in health, 
and suffer worse health outcomes, and are more likely to die 
prematurely and often from preventable causes compared to other 
members of the population.
    This bill provides a greatly needed opportunity to train 
the physicians that we need throughout our country. I am 
delighted that Representative Crowley and Representative 
Boustany have collaborated to pass it. And I would urge all of 
my colleagues, certainly, to be in support of it.
    And Mr. Chairman, I thank you and yield back the balance of 
my time.
    Chairman TIBERI. Thank you, Mr. Davis.
    Dr. Price, you are recognized for five minutes.
    Mr. PRICE. Thank you, Mr. Chairman, and I appreciate the 
opportunity to discuss bills relating to a very important 
subject, and that is the issue of saving and strengthening and 
securing Medicare. The demographic challenges that we have in 
this country are huge, and Medicare is running out of 
resources, as you well know. That is according to their own 
trustees.
    The challenge that we have right now is that CMS is saving 
money, according to them, by decreasing services and limiting 
access to care. And it is happening right now, it is not 
happening just in a fictitious way potentially in the future.
    I want to talk about three pieces of legislation. The first 
is H.R. 5210, which deals with durable medical equipment, 
patient access to durable medical equipment. CMS instituted 
what is called a competitive bidding program for suppliers of 
durable medical equipment that is not either competitive and 
isn't bidding, and it isn't because it doesn't hold bidders 
accountable, it doesn't ensure that bidders are qualified to 
provide the products in the bid markets, and it produces bid 
rates that are financially unsustainable.
    Mr. Chairman, this literally is harming lives, as we speak. 
Essential services, including oxygen, are being denied to 
patients because of difficulty gaining those services. In rural 
areas it is a huge, huge problem. Many areas, many rural areas 
of the country, the amount paid for these services doesn't even 
cover the costs. So you get decreased availability.
    In Georgia, for example, 20 percent decrease in the number 
of DME suppliers in the last three years, and a nearly 40 
percent reduction in medical equipment supply stores in our 
state, just in the last 3 years. Patients' lives are literally 
at risk.
    The National Minority Quality Forum has data that 
demonstrates it is driving up costs by avoidable hospital bills 
and increasing out-of-pocket payments by patients. It has led 
to increased mortality--that means death and hospitalizations 
and a higher cost for Medicare beneficiaries. The OIG for 
Medicare itself said that CMS paid over $1 million to 63 
suppliers for product categories they weren't even licensed to 
provide in their state, over $1 million.
    So, H.R. 5210 would simply delay the onset of this 
competitive bidding program and expanding the onset of the 
program, and that is a bipartisan-supported bill.
    Second is H.R. 4848, the Healthy Inpatient Procedures Act, 
called the HIP Act. As an orthopedic surgeon, I bear some 
familiarity with this area. This is talking about the 
comprehensive care joint replacement, or CJR, model. This is 
something that CMS put in place to try to decrease amount of 
resources spent on lower-extremity joint replacements. The 
problem is they have gotten it all wrong. It is what they call 
a demonstration product, but it is the first mandatory 
demonstration product.
    So, how it could be a demonstration product and be 
mandatory is beyond me. Sixty percent of the hospitals, as 
estimated, will be penalized because of this. Decreasing 
resources available for patients to utilize for lower-extremity 
joint replacement. So what happens? Medicare CMS limits access, 
limits choice, increases consolidation of services, and 
therefore, increases prices.
    What does this mean to patients? As a formerly practicing 
orthopedic surgeon, I would talk to patients about what kind of 
replacement they ought to have. And Medicare may or may not 
agree with that. The problem with this is that, if Medicare 
doesn't agree with it, then guess who doesn't get the joint 
replacement that they need? It is the patient.
    So the H.R. 4848 would delay onset of this program until 
January 2018. Again, it is a bipartisan support, it would 
simply give docs time to get ready for it and give us an 
opportunity to modify this program.
    And then, finally, H.R. 5001. Everybody has heard from 
their docs about the issue of electronic medical records. It is 
a disaster for physicians back home. The amount of time that 
they are having to spend on this to simply comply with 
regulations that don't increase the quality of care to patients 
is astounding.
    What Medicare did this year is to change the meaningful use 
reporting period from a 90-day period, rolling 90-day period 
where docs would have to comply, to 365 days, which means the 
entire year, which means you can't have your server go down, 
you can't have any problem at all throughout the course of the 
year, or you get dinged by Medicare for not having what they 
believe is the appropriate electronic medical record. This bill 
would simply return it to the 90-day reporting period that we 
have had in the past. Again, common sense, bipartisan.
    I appreciate the opportunity to present these, and look 
forward to them passing.
    Chairman TIBERI. Thank you, Doc. With that, Representative 
Buchanan of Florida is recognized for five minutes.
    Mr. BUCHANAN. Thank you, Mr. Chairman, for holding this 
important hearing. Before discussing my legislation I would 
like to mention the importance of examining medical competitive 
bidding also, as Dr. Price has clearly taken the lead on this, 
but has a huge impact on my region in Florida, especially 
Sarasota, but all through Florida. A lot of diabetics are very 
concerned about the impact it is going to have on them going 
forward.
    So I appreciate, Dr. Price, your leadership. And hopefully 
this is something we can get done quickly.
    Now, as for my legislation, along with my good friend, 
Congressman Pascrell, I introduced the Preserving Patient Act 
[sic] to Post-Acute Hospital Care, H.R. 4650.
    Right now, tens of thousands of Medicare patients rely on 
access to highly specialized care facilities known as long-term 
acute care hospitals, or LTACs after they are released from 
intensive care units. These facilities are uniquely equipped to 
care for chronically ill patients over an extended period of 
time. And unless Congress acts, the allowable caseload for 
these facilities will be cut in half January 1, 2017.
    So in six months it would be cut in half. This means people 
will either remain stuck in the hospital ICU longer than they 
want to, or be forced to move to another place, away from their 
homes and families, to find care that they need.
    My bill prevents this cut from taking place, and Congress 
has approved similar measures several times over the last 
decade. We need to act soon. The cut takes effect at the end of 
the year, but these facilities need time to plan for their 
patients' care. If we fail to pass this bill, more than 100,000 
seniors could be denied vital care at their local ATAC 
hospital.
    With that, I yield back.
    Chairman TIBERI. Thank you, Mr. Buchanan, and thank you for 
bringing up Dr. Price's bill. I too share that concern with 
respect to the durable medical goods issue, and have had 
constituents in my region of Ohio express concern. So I look 
forward to working with you on that, Dr. Price.
    Ms. Jenkins, CPA Jenkins, you are recognized for five 
minutes.
    Ms. JENKINS. Thank you, Mr. Chairman, and thank you for 
holding this important hearing and allowing me an opportunity 
to speak on bipartisan legislation that I am proud to advocate 
for that will allow more beneficiaries to access vital care in 
rural areas, save Medicare patients in the system money, and 
ensure its stability for generations to come.
    H.R. 1202, the Medicare Patient Access to Hospice Act, 
which I introduced with Congressman Thompson, will allow 
physician assistants to receive reimbursement from Medicare as 
the attending physician in a hospice setting. Hospice care is 
incredibly important in my district because of the lack of 
hospitals and doctors' offices that urban districts have with 
large health systems.
    Along with allowing physician assistants the ability to 
perform cost-saving medical care in hospice setting, H.R. 1784, 
the MEND Act, which I introduced with Congressman Tonka, will 
bring about an out-of-date CMS regulation in line with the 
accreditation body that allows hospital-based nursing programs 
to produce nurses and shore up critical shortage in the 
Medicare system.
    A third bill, H.R. 2138, the Medicare Access To Rural 
Anesthesia Act, which I introduced with Congressman Cleaver, 
will pay anesthesiologists in certain rural hospitals under 
Medicare Part A for their services at the rate paid to a 
certified registered nurse anesthetist in those hospitals for 
the same services.
    As I pointed out with H.R. 1202, Medicare beneficiaries in 
Kansas must use entire days sometimes to travel to certain 
hospitals to get care. Many of those hospitals can't afford a 
full-time anesthesiologist, so those folks are then forced to 
travel somewhere else to get care. H.R. 2138 will help 
eliminate that burden and allow more rural hospitals to hire 
and keep anesthesiologists on staff.
    Similarly to that bill, H.R. 3355, which I introduced with 
Congressman Lewis, will allow physician assistants, nurse 
practitioners, and clinical nurse specialists to supervise 
cardiac intensive care and pulmonary rehabilitation programs. 
Again, this will allow critical access and rural hospitals to 
hire and keep these vital staff members and provide needed care 
to rural parts of Kansas and the United States. Americans 
living on farms and ranches and those rural areas have the same 
need for medical services as those living in urban areas. And 
this legislation will give them more adequate service and keep 
costs down for the patients and the whole system.
    I will continue to work to give rural Medicare 
beneficiaries better access to care and save the entire 
Medicare system precious dollars so they can stay solvent and 
effective for generations to come. These four bills will make 
it much easier for Medicare beneficiaries to access and afford 
the care that they need, especially in rural parts of the 
states.
    I strongly encourage my colleagues to support these pieces 
of legislation and help me bring them to the House floor.
    I thank you, Mr. Chairman, and I will yield back.
    Chairman TIBERI. Thank you, Ms. Jenkins. Representative 
Marchant is recognized for five minutes.
    Mr. MARCHANT. Thank you, Mr. Chairman. Thanks for having 
this hearing and allowing us to put forward our ideas.
    I introduced H.R. 3288 with my friend and colleague, Dr. 
Boustany, last year. This legislation amends Title XVIII of the 
Social Security Act to change the method of determining 
disproportionate share hospital payments under the Medicare 
program. As the members of this Committee are aware, DSH 
payments compensate hospitals for the above-average operating 
costs they incur in treating a large share of low-income 
patients.
    Mr. Chairman, 19 states have decided not to adopt Medicaid 
expansion. DSH hospitals in each of these states such as Texas, 
Florida, Tennessee, Kansas, and Georgia, are financially 
disadvantaged by this. Though it is not our job to make state-
level decisions, it is our job to ensure our hospitals have the 
resources necessary to care for our constituents.
    My bill would help ease the burden these hospitals are 
facing. Patient care is not a partisan issue, and I urge all of 
my colleagues on this Committee to cosponsor this non-partisan, 
no-cost policy.
    Mr. Chairman, once again I appreciate the effort being made 
here today and for the forum to speak on ideas to sustain 
Medicare, and look forward to continuing to work with you and 
the committee to advance the policy and strengthen the DSH 
program.
    Thank you, and I yield back.
    Chairman TIBERI. Thank you, Mr. Marchant.
    Representative Paulsen from Minnesota, you are recognized 
for five minutes.
    Mr. PAULSEN. Thank you, Mr. Chairman also for holding this 
hearing. I have two bills that I have introduced that I would 
like to touch on today that have bipartisan support and would 
benefit seniors on Medicare.
    The first is H.R. 5075, the Accelerating Innovation in 
Medicine Act, also known as the AIM Act, which I introduced 
with Representative Ron Kind. Currently, patients and providers 
are having trouble accessing the newest, most innovative 
medical technologies and more and more barriers and coming from 
CMS, rather than from the FDA. And we, as a committee, need to 
take a serious look at the CMS coding, coverage, and 
reimbursement process to examine how the agency is functioning, 
its impact on the biomedical ecosystem, and its effect on 
ensuring that patients will have access to the next generations 
of advanced therapies.
    Currently, the process of receiving a CMS code alone can 
take as long as three years. National coverage decisions are 
typically time consuming and cumbersome, and some new therapies 
must go through a process of convincing each local carrier to 
provide coverage before a patient or a senior can get access. 
This process delays patient access to ground-breaking 
treatments.
    My bill, the AIM Act, would focus on the front end of this 
process by increasing patient access to the new--to new FDA-
approved medical devices and procedures, and speeding up the 
collection of data needed for Medicare coverage decisions. The 
AIM Act does this by allowing a manufacturer to place FDA-
approved devices and treatments on a list, where they are 
available for Medicare beneficiaries that self-pay.
    By agreeing to not seek Medicare reimbursement for three 
years, the devices then will be available without government 
red tape, paperwork, and administrative costs. And during that 
three-year period the manufacturer could collect patient data 
that will help streamline a future Medicare coverage decision.
    The current system is expensive, it is inefficient, and it 
gives providers, patients, and manufacturers uncertainty. And 
we need legislation like the AIM Act so that we can ensure the 
continued development of new treatments to improve Medicare 
outcomes, efficiencies, and lower costs.
    And then, Mr. Chairman, the second bill is H.R. 2404, the 
Treat and Reduce Obesity Act that I have also introduced with 
Representative Ron Kind. Obesity is now an epidemic and a 
public health crisis that needs to be addressed. Over 40 
percent of seniors are obese. This disease takes both a 
physical and an emotional toll on an individual, and often is 
the cause of many other chronic conditions like diabetes, heart 
disease, stroke, and others.
    Nearly 20 percent of the increase in our health care 
spending over the last 2 decades was caused by obesity. And 
this disease directly costs Medicare more than $50 billion a 
year, and that number will continue to increase over the coming 
years. This is bad for our seniors and it is bad for Medicare.
    Unfortunately, there are limitations in place preventing 
patients from accessing important treatments and providers that 
can help them combat obesity. The Treat and Reduce Obesity Act 
would remove these barriers by giving patients access to FDA-
approved obesity drugs under Medicare Part D, and allowing 
additional qualified health care practitioners to provide 
intensive behavioral therapy services. Patients and clinicians 
require access to the full range of proven, safe, and effective 
therapies for the treatment of obesity.
    We have the ability to save the health care system billions 
of dollars and, at the same time, make the lives of patients 
significantly better. And that is why this bill has nearly 150 
bipartisan cosponsors. We can't solve this problem overnight. 
But by taking action now we will help us solve our obesity 
crisis over the long term.
    And finally, Mr. Chairman, I just want to touch on another 
issue that I am working on. I recently held a roundtable in 
Minnesota with some hospitals, and they are concerned about the 
direction that Medicare is going in terms of too much 
regulation, too many requirements, and the reimbursement system 
being very unpredictable. Hospitals, providers, and patients 
all recognize that we need fundamental reforms to the system. 
Otherwise, the system will collapse and seniors will suffer.
    Thankfully, there are providers, health plans, and states 
out there that are now trying to find ways to make our health 
care system more efficient and effective. They are not trying 
to tie the health care system up in knots with duplicative 
process measures that may or not yield the best results [sic]. 
But they are focusing on outcomes, high impact, clinically 
credible outcomes that we can focus providers around to achieve 
substantive and sustainable improvements for patients. And we 
can learn a lot from these state and local initiatives to 
strengthen Medicare.
    I look forward to working with you, Mr. Chairman, and my 
colleagues on those efforts to do just that. Those are just 
several of the ideas that I have for reforming Medicare, and I 
look forward to working with the chairman in the future on 
these bipartisan ideas. I yield back.
    Chairman TIBERI. Thank you, Mr. Paulsen. We are now to be 
joined by members of the full committee who have some ideas of 
their own on health care.
    Welcome, everybody. How is it down there? Not bad?
    Well, let's start with the gentleman to my far left, Mr. 
Dold.
    You are recognized for five minutes to share your ideas 
with us.

        STATEMENT OF THE HONORABLE ROBERT DOLD, A REPRE-

        SENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Mr. DOLD. Thank you, Mr. Chairman. I appreciate the 
comments from my colleagues down here--your comments.
    [Laughter.]
    Mr. DOLD. But anyway, Mr. Chairman, I thank you for the 
opportunity to testify before you today on two bills that I 
think will make some critically necessary reforms to Medicare.
    The first I would like to speak about is H.R. 5122, a bill 
that I helped introduce alongside my colleagues, Dr. Bucshon, 
Dr. Boustany, Dr. Price, and Representative Shimkus. This 
legislation would prevent CMS from finalizing, implementing, or 
enforcing the demonstration program they proposed on March 8th 
of 2016. The proposal will dramatically alter the way Medicare 
Part B reimburses physicians for medications they administer to 
seniors in outpatient settings. The resulting cuts could 
disrupt access to medications for our most vulnerable seniors, 
including those with cancer, arthritis, and other very serious 
diseases.
    As you are all aware, this proposed demonstration was 
developed by the Center for Medicare and Medicaid Innovation 
with very little transparency and limited input from patients 
and physicians. Unlike previous CMMI demonstrations, all Part B 
providers are required to participate. As a direct result of 
the demonstration, by phase two, 75 percent of all providers 
will see drastic cuts to their reimbursements when providing 
Part B-covered medicines to patients.
    It also appears that CMS has failed to fully model how this 
demonstration will interact with other programs, especially the 
implementation of macro-legislation passed to repeal the SGR.
    Thanks to the ingenuity and perseverance of incredible 
researchers, our modern medical system has moved away from a 
one-size-fits-all treatment and has progressed into an era of 
precision medicine where treatments are highly personalized for 
each individual patient.
    The proposed demo, or demonstration project, directly 
contradicts this progress by incentivizing doctors to provide 
older, less advanced treatments, rather than newer, more 
innovative options. By allowing this demonstration to proceed, 
we are putting physicians in a very difficult position that not 
only is unfair, but detrimental to patient care. This will be 
especially true for providers working in small clinics serving 
rural areas.
    When the Federal Government created Medicare 50 years ago, 
Congress made a commitment to America's seniors, and the cuts 
embedded in this demonstration project are a betrayal of that 
commitment. We must stop this ill-conceived proposal, and 
uphold our commitment to protect health care for seniors.
    I would also like to speak with you today about another 
bill that will ensure seniors receive the best care possible. 
It is H.R. 1178, the Ensuring Equal Access to Treatments Act, 
sponsored by my friends, Representative Reed and Representative 
Kind. It improves the way that CMS pays for certain diagnostic 
procedures that have a discretionary drug component by altering 
the current one-size-fits-all approach which does not allow 
seniors to receive the personalized care that best meets their 
needs.
    In 2014 outpatient prospective payment system had a rule 
that CMS redefined in terms of packaged payments for certain 
drugs administered with corresponding procedure. Rather than 
reimbursing for the drugs and the procedure separately, CMS now 
uses one package payment, which includes the drugs and all 
other services and supplies associated with the procedure.
    Unfortunately, since the package payment is the same 
whether or not the drug is used, the new payment structure has 
the effect of encouraging health care providers to choose 
treatments which may not result in the best long-term outcome 
for the patient. H.R. 1178 corrects the problem by requiring 
CMS to create two separate payment codes, one for when the 
diagnostic procedure is performed with drugs, and another when 
it is performed without drugs.
    We have already seen cases where 2014 packaged payments is 
negatively impacting vulnerable seniors. One example concerns 
the diagnostic of coronary heart disease. Providers have two 
options to raise a patient's heart rate to a specific target: a 
stress test on a treadmill or a stress test by an induced drug, 
which may be needed for those that are unable to get on a 
treadmill to raise their heart rate.
    The current package payment system provides an incentive 
for providers to choose the free treadmill test over the drug, 
even if the drug may be more appropriate. I believe we have an 
obligation to correct this misaligned incentive, so that 
patients receive the most appropriate care necessary. We have 
seen a similar problem when physicians choose whether to 
diagnose bladder cancer with the new, innovative procedure 
known as a blue light cystostopy, or an older, less advanced 
white light test.
    We made a commitment to provide America's seniors with 
high-quality health care through Medicare programs. I look 
forward to working with all of you on H.R. 5122 and H.R. 1178, 
and the other bills that have been presented here today, in 
order to ensure that we maintain our commitment to our seniors.
    I thank you.
    Chairman TIBERI. Thank you, Mr. Dold. Thank you for your 
leadership in trying to stop that Part B demonstration program 
being proposed. It is important for us to try to do that. Look 
forward to working with you in that attempt.
    With that, Sheriff Reichert, you are recognized for five 
minutes.

STATEMENT OF THE HONORABLE DAVID G. REICHERT, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF WASHINGTON

    Mr. REICHERT. Thank you, Mr. Chairman. And I want to thank 
Chairman Tiberi and Ranking Member McDermott for being here 
today and holding this hearing and listening to our initiatives 
that we have been working on. I would like to talk about a 
couple of bills.
    First I would like to talk about H.R. 2649. And this bill 
was introduced with Representative Mike Thompson, and it is 
assisting Medicare beneficiaries who have been injured on the 
job, filed a claim for workers compensation, and settled their 
claims. In these settlements an amount must be set aside to 
cover Medicare's share of future medical expenses related to 
the injury.
    The problem is that there are no statutory or regulatory 
provisions defining how these set-aside amounts should be 
determined. And the current procedure used by CMS has been 
subject to change without reasonable notice to the parties 
involved. This broken process results in delays and hardships 
for injured workers.
    My bill establishes a clear, predictable process. A few 
ways it accomplishes this is by setting up timeframes for CMS 
to review set-asides, providing an appeals process and also 
offering individuals the option to pay the total set-aside 
amount directly to CMS.
    So I look forward to working with you on this bill in 
advance. It is one of the priorities that we have been 
discussing, both on the D and the R side.
    The next bill is one that, Mr. Chairman, you and I have 
talked about. It is the Lymphedema Treatment Act. This is 1608. 
I introduced this bill with Mr. Blumenauer. Lymphedema causes 
painful swelling in parts of the body where the lymph nodes or 
vessels have been damaged. While there are many causes, damage 
from cancer treatment is probably the most common. While there 
is no known cure for lymphedema, it is treatable.
    But sadly, Mr. Chairman, current Medicare law leaves 
patients without access to treatment items they need to manage 
the swelling and prevent further health complication. My bill 
will fix this by providing coverage of doctor-prescribed 
compression supplies. This will not only save lives, but 
improve patients' health. But it also will strengthen Medicare 
program by reducing costly hospital stays.
    For example, Sarah from Ohio. When she was diagnosed with 
lymphedema she was on the verge of losing her mobility and 
suffered frequent episodes of cellulitis. Between 2002 and 2004 
she was hospitalized more than 10 times. In 2005 she was 
prescribed her first pair of compression garments. And by 
wearing these garments on a daily basis, she was able to 
maintain the progress she has made through treatment, manage 
her lymphedema so well that she has not been to the hospital in 
over a decade. In over a decade.
    Bob, from New York. In 2000 he was hospitalized twice with 
potentially fatal cellulitis infections. Later that year he was 
diagnosed with lymphedema. He received treatment and was 
prescribed the compression garments. In the 16 years since he 
has not had another cellulitis attack and has not been to the 
hospital.
    Now, we can talk about whether or not this is expensive, 
because that is what, of course, the Administration's argument 
is, and Medicare's argument is. But we are saving a lot of 
money by providing these garments to these patients who have 
suffered through and survived cancer, saving money at the back 
end on other treatments and hospital stays. And not only that, 
it is the right thing to do for these patients.
    So I want to thank Members here today who have already 
cosponsored this bill. I would like to recognize the patient 
advocates who have taken the time to meet with their Members 
and share their stories. Thanks to their tireless efforts, the 
bill now enjoys, Mr. Chairman, over 230 bipartisan cosponsors. 
And now we are working to even get more.
    And I ask, Mr. Chairman, unanimous consent to enter into 
the record a statement from the lymphedema advocacy group.
    Chairman TIBERI. Without objection.
    Mr. REICHERT. The bottom line here is these are not defined 
by Medicare as medical devices because they don't fall within 
the definition of long-term, durable devices, which is three 
years, because in most cases the patients have to have new 
garments every six months. They are not disposable medical 
devices because they keep them six months and not a few weeks 
or a few days. This is ridiculous, a ridiculous rule, Mr. 
Chairman, and this bipartisan piece of legislation changes this 
rule and helps these patients get the treatment they so 
desperately need.
    Thank you, I yield back.
    Chairman TIBERI. Thank you, Sheriff. Now, representing the 
entire South Dakota delegation in the House, Representative 
Kristi Noem.
    Mrs. NOEM. That is a big job.
    Chairman TIBERI. Thank you for being here.

        STATEMENT OF THE HONORABLE KRISTI NOEM, A REPRE-

         SENTATIVE IN CONGRESS FROM THE STATE OF SOUTH

                             DAKOTA

    Mrs. NOEM. Thank you, Mr. Chairman. And thank you Ranking 
Member McDermott and Members of the Subcommittee, for holding 
this hearing and allowing me to talk about a Medicare bill that 
I am promoting.
    I am here to discuss H.R. 4277, the Medicare Mental Health 
Access Act. I introduced this bipartisan bill with my 
Democratic representative, Jan Schakowsky, who has been a 
leader on mental health care policy. She is a member of the E&C 
committee. And I want to thank her and her staff for all of 
their hard work on this issue, as well.
    As you know, millions of Americans lack adequate access to 
mental heath services. And it is especially true for thousands 
of seniors who age into Medicare every day. The Federal 
Government should be working to improve access for these 
individuals. But sadly, current law does exactly the opposite. 
In fact, it presents significant barriers to American seniors 
who seek mental health services.
    The problem is that seniors have to go through a middle-man 
to get care, and that is because Medicare requires that many 
services provided by clinical psychologists must be prescribed 
and monitored by a medical doctor, a doctor who may or may not 
have any experience or training in mental health care. This 
supervision requirement is outdated and it stands in stark 
contrast to the private sector, in which clinical psychologists 
are largely allowed to provide treatment independently.
    That requirement also fails to respect clinical 
psychologists' rigorous training and licensure requirements, 
which includes years of study in obtaining a Ph.D. This 
requirement is especially harmful for rural and under-served 
areas like South Dakota. When a physician is not available to 
oversee a clinical psychologists's treatment program, the 
services are simply not offered.
    My bill, H.R. 4277, makes it easier for seniors to obtain 
mental health care services that they need, and it puts 
clinical psychologists on equal footing with other non-
physician providers like chiropractors and optometrists. They 
are easily accessible by Medicare beneficiaries.
    In short, the Medicare Mental Health Access Act amends 
Medicare's definition of ``physician.'' It includes clinical 
psychologists. This would have the effect of removing the 
middle-man from the process of seeking mental health services 
and allowing seniors to go directly to clinical psychologists.
    It is also important to note that, while this adds clinical 
psychologists to the physician definition, it would not allow 
clinical psychologists to become medical doctors. Rather, it 
would simply allow them to practice in a more independent way 
by removing that physician supervision requirement.
    I would like to thank Mr. Nunes, Mr. Kind, Mr. Blumenauer, 
the subcommittee members who have already cosponsored this 
important bill. I urge the rest of you to join them because the 
Medical Mental Health Access Act represents a huge opportunity 
for us. It will tear down barriers for mental health care 
access for our seniors where, in states like South Dakota, we 
see it being a real issue for them getting the kind of care 
that they need.
    I sincerely hope the committee will take up this bill as 
soon as possible. And again, Mr. Chairman, I thank you for the 
opportunity to testify today.
    Chairman TIBERI. Thank you for your leadership on these 
important issues.
    Mr. Renacci, thank you for your leadership on the 
readmissions issue that became part of a bill that we passed 
unanimously on the floor last night. And we recognize you for 
five minutes.

  STATEMENT OF THE HONORABLE JIM RENACCI, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. RENACCI. Thank you, Mr. Chairman, for holding this 
hearing. I am grateful for the many bills that my colleagues 
have and will present today. Indeed, I am a proud cosponsor of 
many of them. I also think it is important we are here today 
presenting proposals, and continuing the conversation on how we 
can improve the delivery of services through Medicare and 
health care systems in general.
    When it comes to seniors, for instance, too often they 
decide not to seek the care they need because of the price, the 
inconvenience, or the bureaucratic red tape which gets in the 
way. There are so many burdensome and confusing regulations 
which many times leave Medicare beneficiaries waiting for a 
level of care they need or potentially facing extremely large 
bills they thought Medicare was covering.
    For example, under current Medicare payment policy, even if 
a physician knows the proper care setting for a beneficiary is 
a skilled nursing facility, beneficiary must be admitted to a 
hospital, stay at least three days as an inpatient, in order 
for Medicare to cover the cost of the beneficiary's stay in a 
skilled nursing facility. Many times the beneficiary's personal 
doctor is also on staff at that same hospital, and certainly 
knows the level of care needed before they are admitted.
    Even more concerning is that often times patients are not 
actually admitted as an inpatient, and are only admitted under 
observation stay. Despite most not knowing their status, most 
beneficiaries actually see no difference in care while at the 
hospital, but are penalized for non-payment if later admitted 
to a skilled facility.
    Unlike other post-acute care settings, Medicare requires a 
three-day inpatient hospital stay to qualify for skilled care, 
causing confusion for beneficiaries. According to an OIG report 
in 2012, beneficiaries had over 600,000 hospital stays that 
lasted 3 nights or more, but did not qualify them for skilled 
nursing facilities, meaning these individuals were either 
outpatient or observation status during the hospital stay. 
Because they did not have the three days of inpatient care, as 
confusing as it sounds, they did not qualify for skilled 
nursing care, due to the inpatient requirement, and they are 
left incurring tens of thousands of dollars of costs that are 
not reimbursed by Medicare if they end up going to a skilled 
facility.
    In order to protect access to rehabilitation services, I 
have introduced a bipartisan bill, H.R. 290, the Creating 
Access to Rehabilitation for Every Senior. It is called the 
CARES Act. It waives the three-day inpatient stay requirement 
for skilled nursing facilities that meet certain quality 
measures.
    Here is an interesting fact. The average three-day 
inpatient hospital stay in many cases is equal to or sometimes 
more costly than the average 27-day stay in a skilled nursing 
facility. And we burden our Medicare system with both levels of 
cost. Even private insurance companies have already eliminated 
this unnecessary and duplicative expense, the three-day 
requirement.
    Therefore, by eliminating the three-day inpatient 
requirement, Congress can save both the beneficiary and the 
Medicare system money by reducing unnecessary hospitalizations.
    I understand this issue. I operated skilled nursing 
facilities for over 28 years. Just like many of the bills that 
passed the full House yesterday, I believe this is one more 
common-sense reform which will minimize hospital over-
utilization, cut down on unnecessary red tape, eliminate 
unnecessary costs to Medicare program, and focus on what is 
best for the patient.
    Why should a beneficiary have to go to a hospital, have a 
doctor diagnose the need for nursing home care, all while 
remaining in the hospital, costing the system thousands of 
dollars? The CARES Act fixes this one step, let's doctors 
decide the best care delivery system without burdening the cost 
of a three-day hospital stay, and helps protect the solvency of 
Medicare.
    And I look forward to working with my colleagues on both 
sides of the aisle to try and move this legislation. Thank you, 
Mr. Chairman, and I yield back.
    Chairman TIBERI. Thank you, Mr. Renacci.
    Dr. Boustany, you are recognized for five minutes. Thanks 
for your leadership in health care.

 STATEMENT OF THE HONORABLE CHARLES BOUSTANY, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF LOUISIANA

    Mr. BOUSTANY. Thank you, Mr. Chairman. I want to thank you 
and fellow members of the Ways and Means Committee, the Health 
Subcommittee, for holding this hearing and for hearing our 
priorities through a regular legislative order. I think this is 
really important, and especially with an emphasis now on 
strengthening the Medicare program, which is a vital program.
    As you all know, the Medicare program was established in 
1965 to provide reliable health coverage for America's seniors, 
and we all know there are significant challenges ahead to 
preserve and strengthen this program. And I am convinced that 
we cannot really truthfully and effectively solve the problems 
with Medicare unless we fully embrace innovation and the latest 
technology that comes online to improve the health and the 
lifespan and the quality of life for our seniors.
    I could tell you, as a long-time practicing cardio-vascular 
surgeon, I saw an explosion of new technology, just in the time 
I was in practice, that made major differences, huge 
differences in the lives of seniors, and that continues today.
    I am proud to join my Ways and Means colleague, Richie 
Neal, as well as colleagues on the Energy and Commerce 
Committee, Gus Bilirakis and Tony Cardenas, to introduce H.R. 
5009, called the Ensuring Patient Access to Critical 
Breakthrough Products Act. This legislation provides an 
accelerated route to FDA approval and subsequent limited 
coverage under Medicare in order to stimulate the development 
of important new diagnostics and treatments that address 
currently unmet medical needs.
    For instance, following FDA approval it can take upwards of 
three years to receive a reimbursement code under Medicare, 
delaying patient access to groundbreaking technology. This is 
just unacceptable. We can do better. And while this legislation 
continues to allow CMS to remain the final arbiter for 
extending permanent coverage of this limited universal medical 
device technology, this legislation is a very important step to 
enhancing access on the front end to this cutting edge 
diagnostic and treatment technology for America's seniors.
    Many examples exist. I have talked to a number of our 
companies, particularly the heart valve technology arena, where 
they move to advance technology now--for instance, instead of 
having to cut open the chest and spread the ribs and the 
sternum, they can do this through percutaneous technology to 
save lives and morbidity, and truly help people who might not 
have even been candidates for open heart surgery because of 
other existing co-morbidities. That is just one example of the 
many advances.
    But if we are caught whereby, after going through a lengthy 
FDA process CMS delays the implementation and the use of this 
technology because there is no reimbursement code, then, I 
mean, this technology sits there and it is not accessible for 
seniors.
    This legislation is a modest approach to addressing this 
logjam and helping to move this technology forward, and so I 
look forward to working with the committee, and hope we can 
mark up this bill.
    Thank you, Mr. Chairman, I yield back.
    Chairman TIBERI. Thank you, Dr. Boustany, for your 
leadership. With that, the gentleman from New Jersey, my 
friend, Mr. Pascrell, a member of the subcommittee, is 
recognized for five minutes.

 STATEMENT OF THE HONORABLE BILL PASCRELL, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. PASCRELL. Thanks, Mr. Chairman, and thanks for putting 
this together. There are some things we disagree with, there 
are a lot of things we do have in common, though. So today I 
want to touch three subjects, if I may.
    Huntington's Disease Parity Act, H.R. 842, the Huntington's 
Disease Parity Act, with my friend, Congressman Adam Kinzinger 
from Illinois. Today the bill has 253 bipartisan cosponsors, 15 
from our committee alone, and of itself, makes this bill, I 
think, worthy of consideration.
    Huntington's Disease, or HD, is a genetic neuro-
degenerative disease that causes total physical and mental 
deterioration over a 10 to 25-year period. Because it is a 
genetic disorder, HD profoundly affects the lives of entire 
families emotionally, socially, financially, like a lot of 
other diseases, too. This devastating disease has no treatment 
or cure, and slowly diminishes an individual's ability to walk, 
to talk, to reason.
    Today I will focus on the one provision of the bill which 
would waive the two-year Medicare waiting period for 
individuals with HD. Under current law, once a person with HD 
is deemed eligible for disability benefits--which is a 
challenge in itself--they are then forced to wait two more 
years before they can receive Medicare benefits. This means 
that while people are in the grips of a terrible, all-
consuming, degenerative disease they can often not access the 
range of health care services they desperately need. This is 
simply unacceptable, Mr. Chairman.
    I thank all of my colleagues on the Ways and Means who 
joined with me on this legislation.
    Second thing is Reserving Patient Access to Post-Acute 
Hospital Care Act. I would like to highlight H.R. 4650, the 
Preserving Patient Access to Close Acute Hospital Care Act, 
which I introduced with my friend, Congressman Vern Buchanan. 
As the co-founder and co-chair of the Congressional Brain 
Injury Task Force, I understand the important role that long-
term care hospitals play in the recovery of many individuals 
who suffer moderate to severe traumatic brain injuries, or 
TBIs.
    If there is one thing that I have learned about TBI in the 
16 years I have been working on this issue, it is that recovery 
looks different for everyone. That is why we must preserve 
access to all post-acute care options, so patients can receive 
the individualized care that they need.
    H.R. 4650 would provide an additional 2 years of relief 
from the full implementation of the 25 percent rule for long-
term care hospitals. I would also note that the industry has 
offered to extend the current moratorium for a long-term care 
hospital to help offset the cost of the bill, which is 
something that I hope the committee would consider.
    And my final point is this, Mr. Chairman, something you 
have heard me speak about too many times, probably, and that is 
the UDI and claims. More than a few times. I just want to touch 
briefly on it being included in the unique device identifiers, 
the UDIs, in health insurance claims.
    This is an important patient safety measure that would 
improve post-market surveillance of medical devices to help 
identify problems with devices more quickly and help improve 
Medicare program integrity. I was very pleased last month when 
CMS Acting Administrator Andy Slavitt expressed support for the 
important policy.
    I look forward to working with you, Mr. Chairman, Mr. 
Ranking Member, to get this done. And I thank you, and I yield 
back, Mr. Chairman. Thank you.
    Chairman TIBERI. Thank you, Mr. Pascrell. We will go from 
Jersey to Philly.
    Representative Meehan, you are recognized for five minutes.
    Mr. MEEHAN. It is a great route, isn't it, Mr. Pascrell?

STATEMENT OF THE HONORABLE PATRICK MEEHAN, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. MEEHAN. Thank you, Mr. Chairman and the full committee, 
for your participation and allowing us to take this 
opportunity. And I appreciate the opportunity to speak about 
H.R. 4212, which is the Community-Based Independence for 
Seniors Act of 2015, which I introduced with our colleague, 
Representative Linda Sanchez.
    The bill would authorize community-based institutional 
special needs plan demonstration program to provide home and 
community-based long-term services and supports to low-income 
Medicare beneficiaries who need assistance with at least two 
activities of daily living.
    Under current law, Medicare does not typically provide 
coverage for community-based, long-term care services and 
supports, which include medical and personal care, such as 
assistance with bathing or managing medications. And one study 
found that 13 percent of seniors spent down their savings in 
order to qualify for Medicaid.
    The demonstration program is designed to eliminate the need 
for Medicare beneficiaries who receive a low-income subsidy to 
spend their savings and become dependent on Medicaid. Many 
seniors prefer to remain in their homes--in fact, they are more 
healthy as a result of it--to receive the care that they need. 
And home and community-based care holds the promise of keeping 
seniors healthy and avoiding costly care.
    The demonstration offers up to five Medicare Advantage 
plans to provide coverage for long-term care services. The 
plans will receive a per-month payment not to exceed $400 for 
providing these services, and eligible Medicare beneficiaries 
with CBI in their area have the option to enroll in the plan.
    HHS will evaluate whether providing home and community-
based services to Medicare beneficiaries reduces state and 
Federal Government health care spending through delaying 
Medicaid eligibility for low-income seniors and reducing the 
need for acute care. The demand for long-term care services and 
supports continue to increase. The population of seniors 85 
years and older is estimated to more than triple by 2050, and 
this group is 4 times more likely to use long-term services and 
supports compared to seniors age 65 to 84.
    This program is one step towards reforming long-term 
service and supports that can generate savings while allowing 
seniors to remain healthy at home. A similar version of my 
legislation was reported out of the Senate Finance Committee 
last year, and I ask for the Chairman's support in advance of 
H.R. 4212.
    I also want to highlight the arbitrary and capricious 
manner in which CMS is making decisions regarding eligibility 
to participate in Medicare programs as a hospital. CMS must not 
establish or change a substantive legal standard governing the 
eligibility of organizations to furnish services or benefits, 
unless the agency uses notice and comment rulemaking. However, 
CMS has done just that in a ruling that will make a 
determination that Wills Eye Hospital is not eligible to 
participate in Medicare as a hospital.
    In contrast, the Pennsylvania Department of Health in the 
state of Pennsylvania, the survey agency determined that the 
hospital satisfied the Medicare conditions of participation and 
should be licensed under Pennsylvania laws an inpatient 
hospital. And I ask the chairman to work with me to ensure that 
CMS is using known standards in making determinations regarding 
hospital status for purposes of the Medicare reimbursement.
    And lastly, I want to note that I am working with Ranking 
Member McDermott on the Beneficiary Enrollment Notification and 
Eligibility Simplification Act, also known as the BENES Act. 
And as many of you know, Medicare enrollment rules are complex, 
and seniors do not receive notice from CMS regarding their 
responsibility to enroll. And because of these confusing rules, 
seniors may find themselves subject to a late enrollment 
penalty.
    The Part B late enrollment penalty permanently increases a 
beneficiary's premium by 10 percent for every 12-month period 
the beneficiary could have had Part B coverage but did not. 
Others are paying for private coverage that is a secondary 
coverage to Medicare. But without enrolling in Medicare, these 
seniors will find themselves responsible for significant out-
of-pocket costs. Part of the solution is to require CMS, in 
cooperation with the Social Security Administration and the 
IRS, to issue notifications to individuals approaching 
eligibility about the enrollment rules and the coordination of 
Medicare coverage with other health insurance coverage.
    I appreciate the consideration of my colleagues, and I 
thank you, Mr. Chairman.
    Chairman TIBERI. Thank you, Mr. Meehan.
    Welcome to the Ways and Means Committee room, Mr. Mooney 
from West Virginia. You are recognized for five minutes.
    Turn on your--thank you.

  STATEMENT OF THE HONORABLE ALEX MOONEY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF WEST VIRGINIA

    Mr. MOONEY. All right. There you go. Thank you, Mr. 
Chairman. I do appreciate the opportunity to testify about my 
bipartisan bill, the Promoting Responsible Opioid Prescribing 
Act, or the PROP Act.
    My home state of West Virginia has the highest rate of 
opioid overdose deaths in the country, more than double the 
national average. This drug abuse epidemic is a tragedy crying 
out for action. Addictions ravage our communities, rips 
families apart, stunts the development of our youth, and harms 
our economy.
    The House has already taken some important steps to address 
this epidemic, but much more remains to be done. One solution 
is my bipartisan bill, the PROP Act, H.R. 4499. This bipartisan 
bill removes a harmful provision of the Affordable Care Act 
that places unnecessary pressure on doctors and hospitals to 
prescribe narcotic pain medication, regardless of whether the 
patient actually needs it.
    This problem was first brought to my attention by a group 
of doctors in Charleston, West Virginia, and I thank them for 
that. These doctors, many of whom serve Medicare patients, 
describe the dilemma they face when treating pain: either 
prescribe narcotic pain medicine to patients who do not need 
it, or risk receiving a low patient satisfaction score and a 
subsequent cut to the reimbursement rates. This dilemma is a 
result of a well-intentioned policy that is having unintended 
negative consequences.
    In 2006 the Center for Medicare and Medicaid Services, CMS, 
and the Department of Health and Human Services, HHS, developed 
a survey called the ``Hospital Consumer Survey of Health Care 
Providers and Systems.'' We know it as HCAPS. HCAPS is a 
standardized survey used to measure patient perspectives and 
satisfaction on the care they receive in hospital settings. At 
first hospitals used this survey on an optional basis. However, 
when the Affordable Care Act became law in 2010, it put in 
place ``paid performance provisions'' that use these survey 
results as a factor in calculating Medicare reimbursement rates 
for physicians and hospitals on ``quality measures.''
    The survey includes three questions related to pain 
management, including one that asks whether patients feel that 
their caretakers did ``everything they could to help'' with 
pain. While these questions are clearly intended to help 
patients, doctors tell me that these questions pressure the 
doctors to over-use prescription pain narcotics when treating 
patients.
    At a time when prescription pain abuse is rampant, this is 
deeply concerning. Doctors, not the Federal Government, know 
best how to treat patients. And that includes the question of 
how best to use narcotic pain medicine. The PROP Act would 
remove the three pain management questions from consideration 
only when CMS is conducting reimbursement analysis. However, 
the patient will still answer the pain management questions in 
the HCAPS survey, so hospitals can monitor how they are doing.
    By severing the relationship between HCAPS question on the 
pain management and reimbursement, we can remove undue pressure 
on doctors to prescribe unnecessary opioid medications. This 
simple change will reduce access to narcotic pain medication 
for patients who do not need it, thereby reducing the risk of 
addiction.
    According to the National Institute on Drug Abuse, people 
who abuse opioid pain killers are 19 times more likely to start 
using heroine than people who do not abuse those painkillers.
    In addition, CMS is fully able to implement the PROP Act. 
The agency has already provided my staff and this Committee 
with technical assistance on the bill. If the bill passes, CMS 
will simply remove the questions from reimbursement 
calculations during the next rulemaking session. I would like 
to thank the staff from this Committee for their help with 
that.
    The PROP Act is also broadly supported by groups active in 
this field, including the American Hospital Association, the 
American Medical Association, Physicians for Responsible Opioid 
Prescribing, Association of American Medical Colleges, and 
America's Essentials Hospitals. It has also been introduced in 
the Senate by Senators Johnson, Manchin, Capito, Barrasso, 
Blumenthal, Markey, Toomey, Ayotte, and King.
    Finally, I want to thank many members of the Ways and Means 
Committee who are already cosponsoring the PROP Act: Tom Price, 
Diane Black, Tom Rice, Pat Meehan, Earl Blumenauer, and Bill 
Pascrell.
    Thank you, Mr. Chairman, for your consideration.
    Chairman TIBERI. Thank you, Mr. Mooney, for your leadership 
on the PROP Act. It is one that I have heard about, too, back 
in my district in Ohio, as we have talked about. So I look 
forward to working with you.
    Mr. MOONEY. Thank you.
    Chairman TIBERI. Thanks for being here.
    Mr. MOONEY. Sure.
    Chairman TIBERI. Before I turn to Mr. Larson for five 
minutes, I wish to inform him that a member of this 
Subcommittee was going to object to you being here, but I don't 
see him right now. So be prepared if he comes back in the room.
    Mr. CROWLEY. Mr. Chairman? Mr. Chairman?
    Chairman TIBERI. Mr. Crowley?
    Mr. CROWLEY. On behalf of Mr. Pascrell, I would like to 
object.
    [Laughter.]
    Chairman TIBERI. Mr. Larson, you are recognized for five 
minutes. Can you turn on your microphone? Thank you.
    Mr. LARSON. I thank the chairman for interceding on my 
behalf. We were just on one of Mr. Pascrell's shows.
    Chairman TIBERI. I heard.
    Mr. LARSON. He is perplexed after that show.

  STATEMENT OF THE HONORABLE JOHN LARSON, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CONNECTICUT

    Mr. LARSON. So, in keeping with the spirit of the meeting, 
let me first start by thanking Cathy McMorris Rodgers, as well 
as our colleagues, Tom Reed and Kurt Schrader, on introducing 
H.R. 3244, which is Providing Innovative Care for Complex Cases 
Demonstration Act of 2016.
    Mr. Chairman, this bill would create a demonstration 
program in Medicare that would allow for contracts in several 
different parts of our country to be awarded with either a 
high-quality Medicare Advantage plan or physician organization 
ACO to provide an innovative care plan for the highest cost 
Medicare beneficiaries in this area.
    As the chairman knows more keenly than most, that the 
hardest-to-serve population at the end of stages in their life 
is the most costly that we face, in terms of the Medicare 
programs that serve this nation so well. What this bill does, 
in short, is to provide more benefits, lower out-of-pocket 
costs, provide an integrated care model, and set high-quality 
standards.
    What it does, in short, too, Mr. Chairman, is something I 
believe this Committee should always subscribe to, and that is 
combining the very best that public health and the government 
side of the ledger can bring to bear, along with the innovation 
and technology of the private sector and academic research 
organizations that we have to lower the cost of health care in 
a way that is most efficient and productive.
    It is no mistake that when we were looking at the 
Affordable Care Act that there is somewhere between 700 and 
$800 billion annually in fraud, abuse, and overlap of 
responsibilities that take place within the health care system. 
This can be eliminated.
    We know this can happen, in large part, because of, well, 
innovators like the Aetna in my district, in Hartford, 
Connecticut, where we are fortunate to have an individual who 
is the CEO who is a visionary and way ahead of his time, a 
person who recognizes that what we want to do is make sure that 
we are able to keep people in their own homes, that they are 
able to stay there and provide for the needs. It is a place 
that they all want to be.
    And in the process, if we can keep them out of the 
hospital, nobody wants their loved one to acquire a staff 
infection while in the hospital. Nobody wants to have to be 
readmitted after a hospital stay because of a lack of follow-up 
care. No one who has a loved one with a chronic health 
condition like heart disease or diabetes wants their health to 
be compromised because of a lack of coordination amongst health 
care providers.
    What this bill will do is provide innovations. What it will 
provide is an opportunity for us to keep people in their homes 
in an integrated fashion by coordinating their care in a 
systemic manner that will allow us to impact the cost and also 
provide the patient with the best possible outcomes, Mr. 
Chairman.
    I am proud to be a sponsor of this, and I think this is a 
prime example of how we can work together across the aisle by 
sharing the vitality of ideas in everything that technology and 
innovation and, frankly, that the public health system can 
bring to bear. And then, from a human standpoint, recognizing 
what the citizen and what the people want. In the final stages 
of life they want to be in their homes. And we ought to be able 
to come up with the innovation and way to do it.
    Mark Bertolini, the CEO of the Aetna, recognizes this and 
is one of the leading thought thinkers with respect to 
innovative health care designed to reduce these costs so we get 
away from the near 20 percent of our gross domestic product 
that health care ends up costing.
    So, Mr. Chairman, I again want to congratulate my 
cosponsors, especially Cathy McMorris Rodgers, our colleague, 
Tom Reed, and also Mr. Schrader for their support of this bill, 
and I thank you for the opportunity to testify before your 
committee, and hope it will be taken up during this brief 
session.
    Chairman TIBERI. Thank you. I thank the gentleman from 
Connecticut. I have heard a little about that. Aetna has a 
large presence in Ohio. And I am kind of surprised that you 
promoted a gentleman with an Italian last name as being 
intelligent and thoughtworthy.
    Mr. LARSON. Well, unlike Mr. Pascrell, he has a vowel at 
the end of his name.
    [Laughter.]
    Mr. LARSON. But thank you, Mr. Chairman.
    Chairman TIBERI. I thank the gentleman. The gentleman from 
New York is recognized for five minutes.

STATEMENT OF THE HONORABLE JOSEPH CROWLEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. CROWLEY. I believe Mr. Pascrell also objected to my 
testimony today, as well. So on his behalf I would like to 
object to my testimony. But thank you, Mr. Chairman and Mr. 
McDermott, for this opportunity to join you today as we hear 
proposals to strengthen the Medicare program.
    I am glad to have the opportunity to talk about legislation 
I put forward to address what must be a priority within the 
Medicare program: training the doctors we need to meet the 
health care needs for tomorrow. And I thank Mr. Davis, who I 
believe spoke earlier about this particular bill.
    This is not something we could take lightly. Estimates 
indicate that by 2025 we will have a shortage of up to 95,000 
doctors, both primary care doctors and specialists in the 
United States. Our health care needs are only growing, with a 
greater importance on preventative care and comprehensive 
health in an aging population. Ten thousand Americans turn 65 
every day, so it is clear we need to have doctors available to 
treat them and Americans of all ages.
    Important steps have been taken. Medical schools have 
worked to increase their enrollment and their graduating 
classes. But what a lot of people don't realize is that once 
those students graduate, they need to complete another stage of 
training by doing a residency program at one of the nation's 
teaching hospitals. Without completing their residency, they 
cannot become licensed to practice medicine.
    Unfortunately, growing numbers of smart, well-prepared 
medical school graduates are fighting for a stagnant number of 
residency slots. We are not just facing a physician shortage, 
we are facing a physician bottleneck.
    But there is a clear path forward. For generations, 
training doctors has been a shared responsibility of the 
Federal Government and teaching hospitals, and that is because 
it is a shared benefit. The whole country benefits from more 
well-trained doctors. Congress has long recognized the value of 
investing in doctor training. And as a result, the Medicare 
program helps to support doctor training programs by funding 
residency slots around the country.
    However, there was an arbitrary cap on the number of 
residency slots that Medicare will support. And this cap hasn't 
been raised in nearly two decades. Teaching hospitals have done 
their part in stretching their funds as far as they can go to 
help fund additional residency positions, even beyond that 
which Medicare covers. But they cannot do this alone. We must 
act and act soon to raise the Medicare cap on residency slots.
    There is no way to create more doctors overnight, but we 
can make the changes now that will open up the doctor training 
pipeline. I have put forward bipartisan, common-sense 
legislation, the Resident Physician Shortage Reduction Act, to 
increase the number of Medicare-supported residency slots by 
15,000 over 5 years. And I am pleased to have been joined in 
this effort by Dr. Charles Boustany, a member of this 
Committee, and someone who I think all of us respect for his 
experience. After all, who better to stress the importance of 
medical training than a cardio-vascular surgeon?
    Over 125 Members of the House, including many members of 
this Committee, have joined us as cosponsors of this bill. This 
bill would further address our doctor shortage issues by 
directing half of the new slots to go to specialists that are 
determined to be running a shortage. And it makes a decisive 
statement that we need to make a strong investment in our 
doctor training program. That is particularly important if we 
should seek continued proposals to cut or weaken the impact of 
graduate medical education funding.
    Far from being a luxury, teaching hospitals depend on this 
funding to fulfill their mission. It is an investment, not just 
in dollars and cents of running a teaching hospital, but in the 
highly complex and costly patient care missions that teaching 
hospitals undertake. They run advanced trauma centers and burn 
units. They see more complex patient cases. They treat patients 
with rare and difficult disease, like Ebola. And that helps 
train future doctors in all those areas.
    Graduate medical education payments were designed by 
Congress to reflect and encourage and reward all those efforts. 
And in a time of changing health care, teaching hospitals are 
doing more to train residents in community care settings and to 
give residents the skills for exactly the kind of coordinated 
care that our system is moving toward. So I urge all my 
colleagues on the committee to allow our teaching hospitals to 
continue to thrive in the mission of training the next 
generation of physicians. That means maintaining our investment 
in graduate medical education funding.
    And in what I hope will be a priority for this Committee, 
it means lifting the outdated cap on residency slots, Mr. 
Chairman. It is not exaggerating to say the future of our 
health care system depends on just that.
    And with that I yield back.
    Chairman TIBERI. Thank you, Mr. Crowley. I appreciate your 
testimony today and bringing the matter to our attention.
    We will stay in the State of New York and recognize and 
welcome to the committee room, the Ways and Means Committee 
room, Mr. Zeldin for five minutes.

  STATEMENT OF THE HONORABLE LEE ZELDIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. ZELDIN. Thank you, Mr. Chairman. And thank you for the 
opportunity to present my bill, H.R. 3229, to provide for the 
non-application of Medicare competitive acquisition rates to 
complex rehabilitative wheelchairs and accessories, an 
important piece of legislation which would have a significant 
impact on individuals with severe disabilities.
    Complex power and manual rehabilitative wheelchairs and 
related accessories are mostly utilized by a small percentage 
of individuals who suffer from significant disabilities such as 
ALS, cerebral palsy, multiple sclerosis, muscular dystrophy, 
spinal cord injury, traumatic brain injury, and many more. 
Within the Medicare program these individuals represent less 
than 10 percent of all Medicare beneficiaries who use 
wheelchairs, making them an extremely vulnerable group of 
people suffering from significant disabilities.
    The specialized equipment these individuals rely upon for 
daily life is provided through a clinical team model and 
requires evaluation, configuration, fitting, adjustment, or 
programming before it can be properly used. This small 
population of individuals has the highest level of disabilities 
and requires these individually-configured wheelchairs and 
critical related accessories to meet their medical needs and 
maximize their function in independence.
    In 2008 Congress passed and the President signed into law 
the Medicare Improvements for Patients and Providers Act, 
MIPPA, which established a fixed price schedule for complex 
rehab technology, CRT, and related accessories. Under MIPPA, 
CRT devices would be excluded from CMS's competitive bidding 
program to ensure consistent and fair prices for consumers. 
Excluded devices include power wheelchairs and related 
accessories, which are the fundamental parts of the products 
that make them useful and beneficial to people with progressed 
disabilities such as recline tilt systems, specialty controls, 
and seatback cushions.
    In November 2014, however, CMS issued a ruling contrary to 
MIPPA which stated that, beginning in January of 2016, 
accessories that are used on complex rehabilitative wheelchairs 
will no longer be a part of the fixed-fee schedule, but will 
now be subject to competitive bidding prices, which will 
decrease access to the individually-configured wheelchairs and 
accessories relied on by adults and children with disabilities.
    While Congress acted to temporarily delay this measure 
until 2017, further action is needed to permanently address 
this issue. My legislation, H.R. 3229, seeks to codify the 2008 
MIPPA regulations, and excludes power and manual wheelchairs 
and their related accessories from the competitive bidding 
process.
    In addition to the significant support from groups such as 
the ALS Association, Muscular Dystrophy Association, National 
Multiple Sclerosis Society, Paralyzed Veterans of America, Vets 
First, the United Spinal Association, and the Christopher Reeve 
Foundation, just this past week the Government Accountability 
Office issued a report to Congress regarding the benefits of 
this legislation. This GAO report focused on utilization 
expenditures for Medicare wheelchairs and accessories, and how 
the 2016 competitive bidding program adjusted payment rates for 
accessories, and how those rates compared to the 2016 
unadjusted fee schedule payment rates for the same items.
    In addition to recognizing that CRT wheelchairs and 
accessories are required by individuals with high levels of 
disabilities, the report also details that these wheelchairs 
and accessories are not standard wheelchairs, and they are 
individually configured to each person utilizing this 
technology to meet their specific needs.
    The report further states that the information CMS is 
relying upon to shift these wheelchairs and accessories from a 
fixed price schedule to the competitive bidding process is 
based on limited information from only 9 of 109 total bidding 
areas, which is clearly insufficient, in order to nationally 
shift policy. In fact, the report shows that this shift will 
bring about significant payment cuts, ranging from 10 to 34 
percent, which will only result in increased costs which are 
passed along to the consumer.
    My legislation is a common-sense approach to addressing one 
of the significant issues currently affecting the Medicare 
system. This broadly bipartisan legislation is supported by 
well over 100 Members in the House and its companion bill, 
Senate Bill 2196, also enjoys significant bipartisan support in 
the Senate.
    This legislation ensures that those who are in need of the 
most assistance are not unfairly impacted by this new policy 
shift.
    Mr. Chairman, thank you again for the opportunity to 
testify on behalf of this essential piece of legislation. And I 
yield back the balance of my time.
    Chairman TIBERI. Thank you, Representative Zeldin. Glad you 
have you here.
    And last, but not least, welcome to the Ways and Means 
Committee Room--I think the dean of the New Jersey delegation--
Representative Chris Smith.

 STATEMENT OF THE HONORABLE CHRIS SMITH, A REPRE-SENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. SMITH of New Jersey. Mr. Chairman----
    Chairman TIBERI. You are recognized for five minutes.
    Mr. SMITH of New Jersey [continuing]. Thank you very much. 
Thank you, Ranking Member. As co-founder with Ed Markey some 16 
years ago of the Congressional Alzheimer's Task Force, and as 
co-chair for the past 16 years, I am very grateful to you for 
providing me with the opportunity to speak about my bill, H.R. 
1559, the Health Outcomes Planning and Education for 
Alzheimer's Act, which now has 286 cosponsors, including many 
members of this Subcommittee.
    It is very appropriate that we are discussing hope today, 
as June is Alzheimer's and Brain Awareness Month. As I am sure 
you are aware, well over five million Americans suffer from 
Alzheimer's or related dementia. And as the Baby Boom 
population ages, that number is expected to skyrocket unless we 
find a cure or at least delay onset.
    This disease is devastating. We all know people who have 
had it--and friends and family members--to both the patient and 
family, alike. Shockingly, many Alzheimer's patients do not 
receive an accurate diagnosis, especially in the early years. 
And, according to the Alzheimer's Association, fewer than half 
of individuals with Alzheimer's are even told of their 
diagnosis. The 200,000 Americans now affected with early onset 
Alzheimer's are especially likely to get an inaccurate 
diagnosis.
    Alzheimer's is also the most expensive disease in America. 
It incurs catastrophic cost to Medicaid and to Medicare: 
approximately $236 billion in 2016, alone. On average, Medicare 
spends three times more on seniors with Alzheimer's than those 
without. That is to say about $22,000 for seniors with 
Alzheimer's per year. To ensure that optimum care to every 
Alzheimer's patient is provided, we need to find innovative 
ways to improve the quality of care. Occasionally, such 
initiatives will actually reduce--I say again, reduce--Medicare 
spending.
    The HOPE Act would amend the Social Security Act to add an 
additional one-time benefit for care planning services for 
Medicare beneficiaries newly diagnosed with Alzheimer's disease 
and related dementia. This one-time comprehensive care planning 
session will arm patients and caregivers alike with the facts, 
prognosis, and options for the most efficacious treatment plan 
that they might pursue. Comprehensive care planning will 
mitigate huge, unnecessary costs associated with preventable 
trips to the hospital and the emergency rooms.
    As far back as 10 years ago an article in the Journal of 
American Medical Association entitled, ``Effectiveness of 
Collaborative Care for Older Adults with Alzheimer's Disease in 
Primary Care,'' Christopher Callahan wrote that there was a 
savings in a healthy aging brain center study that found a 
$3,500 net Medicare savings when it included such a care 
planning session. So if people know the facts, they are more 
likely to get the care they need earlier, rather than later, 
again averting hospital stays and also taking drugs that might 
have adverse impacts because of drug interaction.
    I would just give you one example that many people are not 
aware of. Aricept, which is prescribed to treat symptoms of 
Alzheimer's, can be rendered ineffective when used with over-
the-counter medicines such as Sudafed. Very often that is not 
known. And again, the drug is not having its positive impact 
that we would hope that it would have.
    Chairman TIBERI. Without objection.
    [The information follows: The Honorable Chris Smith]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Mr. SMITH of New Jersey. SPIREN, a Washington, D.C.-based 
health care consulting firm, conducted a cost estimate for 
HOPE. They did it at the behest of the Alzheimer's Association. 
And they found that a result of this legislation net federal 
health spending would decrease by $692 million over a 10-year 
period. And again, most of those savings to Medicare would be 
the result of reduced hospitalizations and emergency room 
visits, as well as better medication management and better 
management of comorbidity, which of course is a major problem 
with people suffering with Alzheimer's.
    I do hope the committee will consider the bill. It already 
has a huge majority of the House supporting it. And I yield 
back the balance of my time, and I thank you.
    Chairman TIBERI. Thank you, Congressman Smith, for your 
leadership not only on this bill, but for your leadership on 
the issue over the years, over the last 16 years.
    Mr. SMITH of New Jersey. Thank you, Mr. Chairman.
    Chairman TIBERI. There is hope out there.
    So, what a great day, Dr. McDermott. Some great ideas, some 
fascinating testimony. And I would like to get back to you on 
that. I would like to thank all the colleagues who came before 
us today, both from the committee and outside the committee.
    I appreciate all the time and work that they have done, 
that their staffs have done, that our staffs have done, as we 
have started this robust conversation about how we can 
modernize our health care system, including reforms to improve 
and to strengthen our Medicare system.
    And I am happy we have had the time, once again, to pursue 
regular order and make the public record--make a public record 
of the efforts that can help us achieve that goal.
    So please be advised that Members will have two weeks to 
submit written questions that can be answered later in writing. 
These questions and answers will be made part of the formal 
record.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 3:55 p.m., the subcommittee was adjourned.]
    [Submissions for the record follow:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   

                
                           

                                 <all>
</pre></body></html>
